No. 20-6497

IN THE
SUPREME COURT OF THE UNITED STATES

IN re. ANDREY L. BRIDGES
Petitioner;

PROOF OF SERVICE
I, Andrey L. Bridges, do swear or declare on this date,

of fY\0<[A&-, 2021, as

required by Supreme Court Rule 29, I have served the enclosed motion for
Compliance to each party to the above proceeding (Warden, Gray-Respondent, of
Belmont Correctional Institution, P.O. Box 540 St. Clairsville, 432950); or that
party[s] counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States Mail service, that is
properly addressed to each party, and with first class postage, prepaid, or by
delivery to a third party commercial carrier for delivery within 3 calendar days.
I declare under the penalty of perjury that the forgoing is true and correct.

Executed on fY\(X-r r/L\

7

, 2021

Signature /^
II

CERTIFICATE OF SERVICE

I Andrey L. Bridges, certify or state; that a copy of the forgoing was placed in the
prison mail box on this

day of fhfyrxAr*.

2021; and was sent to

Warden, of Belmont Correctional Institution, P.O. Box 540 St. Clairsville, Ohio
43950; and his respective Attorney, at the Attorney General Office, 150 East Gay
street, Columbus, Ohio 43215. And to all respective parties of such styled
case.
The copy was sent First Class Pre Paid, and sent by the U.S. Mail Service.

Respectfully submitted,

ft rXjj
Andrey L. Rr^dges #A65*0^493
Belmont Correctional Institution
P.O. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950

Petitioner In Propria / Persona

III

